HHS/OIG - Audit,"Review of Preferred Placement Grant (90-RP-0008) Immigration and Refugee Services of America, Washington, D.C.,"(A-03-01-00514)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Preferred Placement Grant (90-RP-0008) Immigration and Refugee Services of America, Washington, D.C.," (A-03-01-00514)
December 11, 2001
Complete Text of Report is available in PDF format (243
KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From October 1, 1997 to September 30, 2000, the Immigration and Refugee Services of America (IRSA) received $1,199,707
in grant funding from the Administration for Children and Families (ACF) to place refugees into ACF approved communities.  The
objectives of our review were to determine if IRSA: achieved the grant objectives, complied with grant terms and conditions,
and was capable of managing Federal funds. In general, IRSA accomplished the grant objectives.  However, IRSA placed
266 refugees into 2 communities that were not approved by ACF at the time of initial placement.  The IRSA stated that
ACF gave prior verbal approval of these sites.